   QUALITY OF SERVICE 

PROVIDED TO RAIL SHIPPERS 

   Federal Railroad Administration 


    Report Number: CR-2011-045 

   Date Issued: February 15, 2011 

           U.S. Department of
                                                                Memorandum

           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Report on the Audit of                                           Date:    February 15, 2011
           the Quality of Service Provided Rail Shippers
           Report No. CR-2011-045

  From:    Mitchell Behm                                                              Reply to
                                                                                      Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime, and 

           Economic Analysis 


    To:    Federal Railroad Administrator


           Railroads in the U.S. transport a wide range of goods, from raw materials to
           consumer goods. However, for a number of years, commodity shippers have had
           concerns about the quality of the service that railroads provide them. They have
           complained about a lack of railcars when and where they needed them, delivery of
           significantly less tonnage than contracted for, and disruptions in services. In 2006,
           these complaints began to draw greater attention, with Congress and regulatory
           agencies holding a number of hearings on the issues. Congress then directed the
           Office of Inspector General (OIG) to examine service disruptions since 2004, and
           in particular, incidents in which rail carriers failed to make timely shipments of
           commodities such as coal, wheat, ethanol, and lumber.1

           The objectives of this audit were to: (1) assess the availability of service
           guarantees from freight railroads to shippers of coal, wheat, lumber, and ethanol
           since 2004; (2) assess the quality of service provided to these shippers during the
           same time period; and (3) identify the causes of deficiencies in service to shippers
           during this time.

           We conducted this audit in accordance with generally accepted government
           auditing standards. We reviewed internally-held railroad information and
           publically-available data; interviewed Class I railroad2 representatives, shippers of
           coal, wheat, ethanol and lumber, and independent railroad experts; and, met with
           staff of the Surface Transportation Board (STB).              Consistent with the

           1
               This requirement was included in Conference Report 110-446, accompanying the Consolidated Appropriations Act
               of 2008 (P.L. 110-161).
           2
               Class I railroads are the largest railroads in the U.S.
                                                                                                                        2


congressional request, we limited our scope to data from 2004 through 2009.
Exhibit A provides more information on our scope and methodology. We are
making no recommendations since the issues pertaining to freight transportation
discussed in the report fall under the purview of the STB, an independent entity
outside the Department of Transportation.

RESULTS IN BRIEF
Rail service guarantees in general have become more difficult for commodity
shippers to obtain, especially through contracts. While tariff-based service
options3 can provide some service guarantees, they are predetermined by the
railroads, and only contracts can provide shippers with negotiated guarantees.
However, the share of shipments moving under contracts has declined since 2004
for all the commodities we examined. Moreover, when new contracts were
negotiated, they generally offered fewer service guarantees than the expired
contracts they replaced. As a result, commodity shippers have fewer overall
protections against service problems than in the past. The decline in service
guarantees may have occurred because railroads experienced adverse
consequences from providing them during the most recent economic expansion.
In addition, according to documents prepared for investors and railroad experts,
some railroads view contracts as limits on their flexibility to adjust their customer
mix in order to maximize profits as demand fluctuates.

The quality of freight rail service has varied considerably since 2004, but the
railroads make only limited information about the quality of their service available
to the public. Service quality4 was relatively low in 2004 and 2005, and then
improved gradually for some railroads in 2006 and 2007, and dramatically for all
railroads in 2008 and 2009. We identified this pattern using data on railroads'
internal performance measures, and statements by shippers and railroad
representatives. Public data on railroad performance, however, is very limited and
includes only indirect measures of railroad service quality. Furthermore, no public
records are kept on significant service disruptions that result in poor service
quality. As a result of these factors, publically-available data is insufficient to
monitor service quality.

Demand levels, derailments, and weather events have all driven the fluctuations in
rail service quality since 2004. However, dramatic changes in demand for rail
service had the greatest impact. Specifically, a surge in demand in 2004
contributed heavily to poor service. Conversely, a drop in demand during the

3
    A railroad tariff is a publication that shows the service terms set by the carrier. At a minimum, tariff-based shipping
    must be provided by a freight railroad upon "reasonable request" with "reasonable dispatch." .
4
    We relied on many measures, such as on-time percentages and numbers of railcars past expected delivery dates, and
    many interviews to gauge service quality.
                                                                                  3


recession of 2008 and 2009 allowed railroads to make significant improvements in
the quality of their services. Derailments in the Powder River Basin of Montana
and Wyoming caused service problems throughout the country in 2005 and 2006,
but especially in western states. Most weather events cause localized service
disruptions, but in 2005, a series of extreme events, including Hurricanes Katrina
and Rita, hampered rail service delivery in several parts of the country. Given
demand’s significant role in determining quality, the quality of service provided to
commodity shippers can be expected to reemerge as an issue when high demand
returns.

This report contains no recommendations.

BACKGROUND
Most freight rail tonnage in the United States is moved by four railroads—
Burlington Northern Santa Fe (BNSF) and Union Pacific (UP), which service the
western half of the country, and CSXT and Norfolk Southern (NS), which service
the east. In 2007, these railroads transported 90 percent of the ton-miles5 moved
by U.S. railroads, and in 2009, they accounted for 90 percent of U.S. railroad
revenues. We focused our audit on the services these railroads provided.

The number and nature of commodity shippers served by railroads vary widely by
commodity. Wheat shippers number in the thousands and range considerably in
size. While most are grain elevator operators, some are large wheat processors or
exporters.     Electric utilities, who bargain with railroads over shipping
arrangements for coal, are relatively few in number. For example, according to
BNSF officials, ten customers account for 60 percent of its coal business. Lumber
shippers are either lumber producers or brokers supplying large sales outlets.

Shippers of different commodities use rail to differing extents. For example,
wheat, coal, and ethanol productions are located far from major markets, and the
shipment of those commodities depends almost entirely on rail. Coal, because of
its bulk, is transported primarily by long, large-volume trains. Increasingly, wheat
also moves in large single-commodity trains. Because shipment sizes and
distances to markets tend to be smaller for forest products than for coal and wheat,
trucks sometimes provide a competitive shipping alternative to rail for lumber.

Various rail service options exist for commercial shippers, and each makes
different provisions for service guarantees. Under tariffs, railroads are only
required to provide "reasonable" service. They publically post tariff rates for
interested shippers to see, and a shipper that chooses the option accepts the posted
tariff by tendering its goods to the railroad for transport. The STB interprets and

5
    A ton-mile is the movement of one ton of cargo the distance of one mile.
                                                                                   4


enforces this "reasonable" standard of service. A contract, on the other hand, may
result from negotiations between a shipper and a railroad, and may incorporate a
specific service guarantee with a penalty that applies if the terms of the guarantee
are not met. Only a contract offers a shipper the possibility of a negotiated service
guarantee. The railroads also make special rate offerings available to wheat and
lumber shippers, the terms of which, like tariffs, they publically post and which
may include some service guarantees that they have predetermined. In recent
years, some railroads have also developed special rate offerings for coal shippers
that include commitments, such as to ship minimum volumes.

Shippers of different commodities need different types of service guarantees.
Wheat merchants often attempt to obtain guarantees that railcars will arrive at their
facilities for loading within promised timeframes, and railroads offer such
guarantees through special rate offerings or contracts. Wheat millers attempt to
obtain service guarantees through rail contracts to ensure a dependable supply of
wheat to their processing facilities. However, no more than 30 percent of wheat
shipments moved under contract from 2004 through 2009, the smallest share of
any commodity we examined.

Lumber shippers also tend to be most concerned with service reliability, with
respect to both availability of equipment for loading and predictability of delivery.
Railroads provide these guarantees to lumber shippers through special rate
offerings, and may also agree to them in contracts. Since 2004, the majority of
lumber shipments have been transported under contracts.

Coal shippers usually seek guarantees covering transit time or cycle time (the time
it takes for a train to make the trip from a mine to a utility and back) and monthly
volumes delivered. Cycle times are of concern primarily to shippers that use their
own train sets, while all utilities need to receive sufficiently large monthly
deliveries of coal in order to avoid suspension of operations or having to turn to
more expensive fuel sources. Generally, coal shippers negotiate these guarantees
into contracts, the option under which the vast majority of coal moves.

It is unclear what service guarantees ethanol shippers would demand if they could
obtain them. We found no evidence that railroads have ever extended service
guarantees to ethanol shippers, even though a substantial share of ethanol moves
under contracts.
                                                                                     5


SHIPPERS HAVE DIFFICULTIES OBTAINING GUARANTEES OF
SERVICE QUALITY
Today, commodity shippers experience considerable difficulty obtaining service
guarantees from the railroads. Those seeking to negotiate service guarantees into
contracts encounter the most difficulty. During our study period, railroads have
been increasingly reluctant to provide service guarantees, which may be a result of
their having experienced adverse consequences from providing them during the
most recent economic expansion. In addition, some railroads see contracts as
preventing them from having the flexibility they need to adjust their customer mix
in order to maximize profits as demand levels change.

A number of coal and lumber shippers, as well as some wheat shippers, have
spoken about the difficulty of obtaining service guarantees beyond the minimum
standard available under tariffs. Both lumber and wheat shippers have reported
reductions in the guarantees provided under special rate offerings. The problem of
obtaining service guarantees is most acute, however, for shippers seeking to
negotiate contracts.

Since 2004, the share of shipments moving under contracts has declined for all
four of the commodities we examined, as shown in Figure 1 on the next page.
Grain shippers have reported that most carriers were replacing contract with tariffs
during the study period. Many coal and lumber shippers we interviewed stated
that, despite their efforts, they have not obtained contracts with their servicing
railroads in recent years. In fact, some of these shippers claimed that railroad
representatives refused to discuss contracts with them. Our interviews with
railroad officials produced mixed evidence on their use of contracts. For example,
representatives from one railroad indicated that they had encouraged some
customers to use tariffs or special rate offerings instead of contracts during at least
part of our study period. However, representatives from other railroads informed
us that their willingness to contract with commodity shippers had not changed
since 2004.
                                                                                      6



Figure 1: Share of Shipments by Contract, Fiscal Years 2004
through 2008

           Coal Shipments                            Wheat Shipments
90%                                          60%

80%                                          50%

70%                                          40%

60%                                          30%
                                             20%
50%
                                             10%
40%
                                                   2004   2005   2006   2007   2008
       2004   2005   2006   2007   2008


        Lumber Shipments                             Ethanol Shipments
90%                                          90%
80%                                          80%
70%                                          70%

60%                                          60%

50%                                          50%

40%                                          40%
       2004   2005   2006   2007   2008            2004   2005   2006   2007   2008

Source: STB data



A number of lumber and coal shippers reported a relative lack or total absence of
service guarantees in recent contracts. Other coal shippers informed us that
railroads tie contract service terms to those available under tariffs or special rate
offerings. Since the terms of tariff-based service can change with only 20 days
notice, such contracts do not offer fixed guarantees. In coal contracts, railroads
now tend to only guarantee volumes to be delivered, and have largely discontinued
guarantees of cycle or transit times. One railroad representative characterized new
contracts as less punitive to the railroads. Indeed, that railroad's new contracts
only allow commodity shippers the option of walking away from the agreement if
the railroad fails to perform. Previously, the railroad had to make payments to
shippers when it did not meet service guarantees. A representative of another
railroad stated that the service guarantees now available from his railroad under
contracts are the same as the guarantees under tariffs--"reasonable dispatch."
                                                                                    7


Coal and lumber shippers that engaged in contract negotiations during our study
period characterized the negotiations as "one-sided," with the railroads setting
contract terms. Some of these shippers were recently approached by railroad
representatives about entering into contracts, but found the railroads to be fairly
inflexible in negotiating terms. Since 2004, three of the four railroads in our study
have introduced "signature-less," or unilateral contracts that eliminate the
negotiation process. The railroads alone determine the terms of these contracts,
and consider shippers to have accepted the terms when they tender goods for
shipment.

Railroads may have become wary of providing service guarantees, in part because
during the most recent economic boom they experienced several adverse
consequences as a result of negotiated guarantees. First, railroads had to pay
penalties for poor performance contained in service guarantees as traffic levels
bumped up against capacity constraints.       Second, contractual commitments to
commodity shippers limited the amount of higher-profit traffic the railroads could
take on when demand surged. As early as 2004, the fact books that one railroad
produced for investment analysts addressed this concern, stating that the railroad
intended to maintain flexibility to adjust its customer mix in order to maximize
yield by moving some customers from contracts to tariffs.

FREIGHT RAIL SERVICE QUALITY HAS VARIED SINCE 2004,
BUT PUBLIC INFORMATION ON IT IS LIMITED
The quality of freight rail service was relatively low in 2004 and 2005, improved
gradually for some railroads in 2006 and 2007, and jumped to high levels for all
railroads during 2008 and 2009. The publically-available data on railroad
performance, however, only measures railroad service quality indirectly.
Furthermore, no public records are kept on significant service disruptions that may
result in poor service quality.

Freight Rail Service Quality Varied Greatly from 2004 through 2009
During our study period, the quality of service for freight rail shippers varied
greatly. The most direct indicators of this quality are the railroads' own internally-
held performance measures, which the railroads provided to us. Many of those
performance measures map directly to the service aspects that shippers are most
concerned about. For example, the list of performance measures tracked includes:
on-time percentages; numbers of cars past their expected placement dates; cycle
times; and transit times. Some railroads also compile indices gauging customer
satisfaction.

The railroads' various internal performance measures tell a relatively consistent
story. Most indicate that service quality was poor in 2004 and 2005. It appears to
                                                                                                                    8


have recovered gradually for some railroads through 2007, then leaped to
comparatively high levels for all railroads in 2008 through 2009. Our interviews
with commodity shippers and railroad representatives generally confirmed the
pattern depicted by the railroads' measures. Shippers highlighted 2004 and 2005
as years of notable problems, and characterized 2008 and 2009 as years in which
they received good service. Representatives of some railroads provided similar
assessments, with some adding that service gradually improved during 2006 and
2007.

Railroads Make Little Information on Service Quality Available to the
Public

While railroads' internal performance measures can provide direct indicators of
service quality, public information is limited since published measures of railroad
performance relate only indirectly to service quality. The most relevant of the
publically-available information measures average train speeds and average time
spent at terminals (dwell times)—measures that primarily gauge network
performance. Higher train speeds imply that a rail network's traffic moves
smoothly, and trains spend less time in terminals when railroad operations are
well-coordinated. If the rail network and operations are not functioning well, it is
unlikely that shippers are receiving good service. Consequently, low average train
speeds and high average terminal dwell times imply that service quality is most
likely poor. However, high average train speeds and low average terminal dwell
times do not necessarily imply that shippers are receiving good service.

Figures 2 and 3 chart the courses of these two measures for BSNF over our study
period. The two measures tell different stories. Both indicate that BNSF's
network experienced difficulties in 2004. However, in 2005, terminal dwell times
dropped sharply, but train speeds remained low until late 2008. Many factors
affect these measures, making it difficult to use the data to monitor service quality.
Monitoring is further hampered by an absence of public data on significant service
disruptions, which can adversely affect railroad performance6.




6	
     Other studies have reached the same conclusion. See "A Study of Competition in the U.S. Freight Railroad Industry
     and Analysis of Proposals That Might Enhance Competition," prepared for STB by Laurits R. Christensen
     Associates, Inc., Madison, WI, November 2008, and "Rail Transportation of Coal to Power Plants: Reliability
     Issues," Library of Congress, Congressional Research Service, Washington, DC, September 26, 2007.
                                                                       9



Figure 2: Average Train Speed - BNSF, January 2003 through
December 2009
        30


        28


        25
 MPH




        23


        20


        18


        15




Source: Association of American Railroads (AAR) data compiled by STB




Figure 3: Average Terminal Dwell - BNSF, January 2003 through
December 2009
        35

        33

        30

        28
Hours




        25

        23

        20

        18

        15




Source: AAR data compiled by STB
                                                                                                                 10


DEMAND FOR SERVICE, DERAILMENTS, AND WEATHER
EVENTS DROVE FLUCTUATIONS IN SERVICE QUALITY FROM
2004 THROUGH 2009
Since 2004, dramatic changes in demand for freight rail service have largely
caused the fluctuations in the quality of service reported by shippers. Both rail
representatives and shippers cited demand as an important determinant of service
quality. Derailments in the Powder River Basin of Montana and Wyoming
negatively affected service throughout the country in 2005 and 2006, but most
seriously in western states. Extreme weather further hampered service in many
locations in 2005.

Both Railroads and Shippers Cited Level of Demand as an Important
Determinant of Service Quality
During the study period, striking changes in demand for freight rail service
brought about the fluctuations in service quality that shippers experienced.
Figure 4 graphs revenue ton-miles–the ton-miles of cargo transported for which
railroads receive payment–for Class I railroads for this period.7 Revenue ton-
miles started to rise in 2003, jumped in 2004, and continued to climb into 2008,
when they reached record highs as demand grew dramatically. This increase in
demand was driven primarily by growth in traffic volumes in the western half of
the country. From the last quarter of 2008 through 2009, demand for rail service
fell sharply across the country as the economy went into recession, leading to a
comparable reduction in revenue ton-miles.




7
    While there are seven Class I railroads, we focused on the four that accounted for 90 percent of Class I railroad
    revenue ton-miles in 2007.
                                                                                 11



Figure 4: Revenue Ton Miles - Class I Railroads, January 2000
through December 2009
                            460

                            440
  Ton Miles (In Billions)


                            420

                            400

                            380

                            360

                            340

                            320




Source: AAR data
The surge in demand in 2004 contributed significantly to poor service in the early
years of the study period. Representatives from several railroads explained that
railroads cannot respond quickly to unexpected, substantial growth in demand.
They need a minimum of 6 to 9 months to train additional crews, a longer time to
purchase rolling stock, and even longer to upgrade infrastructure.

None of the railroad personnel we interviewed anticipated the demand surge. One
independent expert stated that railroads remained in cost-cutting mode well into
2004. Indeed, not until March 2004 did Class I railroad employment begin to
reverse the downward trend it had exhibited since the late 1990s. An STB
representative noted that during the early years of the surge, railroad crews were
"timing out," meaning that they reached the limit of their legally-allowed hours of
service before other crews became available to replace them. Representatives of
one railroad noted that they normally plan for 2 to 4 percent in annual growth, but
as early as 2003, demand increased by nearly 12 percent and continued to grow
through 2007, forcing the railroad to catch up. The representative of another
railroad informed us that the railroad used every switching terminal in its system
to handle demand before it peaked. An independent rail expert concurred with
these assessments, noting that from 2004 through 2007, the railroad network was
"stressed due to excessive demand versus available capacity," and that this stress
had a negative impact on service.

Both shippers and railroad representatives we spoke with cited a drop-off in
demand as the reason that railroads could improve service quality in 2008 and
2009. None of the shippers we interviewed indicated that they had any service
problems in 2008 or 2009. One railroad representative stated that it is "easy to run
the railroad" under such low demand.
                                                                                   12


Derailments in the Powder River Basin and Extreme Weather Also
Affected Rail Service Quality
Derailments in the Powder River Basin (PRB) of Wyoming and Montana
significantly affected coal deliveries from 2005 through 2006. According to the
Energy Information Administration, the PRB is one of the United States' most
important coal-producing areas. While PRB coal primarily supplies utilities in the
western half of the country, it is also shipped to power plants in the east. In May
2005, two major derailments occurred in the PRB. Remedying the conditions
underlying these derailments required replacing the ballast under 90 miles of track,
a significant and disruptive undertaking that lasted into 2007. Every coal shipper
we interviewed reported that these events affected its service, and both western
railroads admitted to service problems in their coal networks after the derailments
occurred.

Weather also significantly disrupted rail service during the study period. Usually,
the effects of weather events are felt in relatively localized areas. In 2005,
however, a series of major events–Hurricanes Katrina and Rita, and flooding on
the west coast and in Kansas–tore up or washed out track in several parts of the
country. These weather-related disruptions exacerbated existing service problems.

CONCLUSION
Commodity shippers currently receive far fewer protections in the form of service
guarantees from freight railroads than in the past. This reduction in service
guarantees is significant since service quality can vary considerably, particularly
with levels of track congestion. Fewer service guarantees means that commodity
shippers are more at risk for experiencing service problems, a risk that will
increase with higher demand as the economy revives. Furthermore, railroads offer
little data to the public that allows for evaluation of the quality of their services,
making it extremely difficult for any government agency to monitor service
quality and identify emerging problems.
                                                                                    13



EXHIBIT A. SCOPE AND METHODOLOGY
The objectives of this audit were to: (1) assess the availability of service
guarantees from freight railroads to shippers of coal, wheat, lumber, and ethanol
since 2004; (2) assess the quality of service provided to these shippers during the
same period; and (3) identify the causes of any deficiencies in service to shippers
during this time.

To obtain information to address these objectives, we interviewed: representatives
of the four largest railroads; representatives of shipper trade organizations for coal,
wheat, lumber, and ethanol; representatives of individual shippers; independent
rail experts; and, STB staff. Representatives of the major railroads provided us
with presentations that, for the most part, were prepared in response to our
questions. We reviewed testimonies from all relevant hearings held since 2004 by
congressional committees, the Federal Energy Regulatory Commission, and STB.
We also reviewed documentation of all other relevant STB proceedings and the
minutes of meetings held by the Rail Energy Transportation Advisory Committee,
an adjunct to STB. We reviewed relevant studies and audits.

To obtain further information on the types of service guarantees that freight
railroads provided to shippers, we collected data from the railroads on the share of
contracts versus tariffs where available, and similar data from STB. We obtained
additional information on the quality of service provided to shippers by collecting
data on service quality measures from the major railroads and the Association of
American Railroads (AAR) data compiled by STB on railroad performance. In
support of our investigation of the causes of rail service deficiencies, we obtained
data on: the types and geographical distribution of complaints received by STB;
rail traffic volumes from AAR; and data on railroad employment from STB.

We conducted our work from November 2008 through January 2011 in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit A. Scope and Methodology
                                                                                14



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

Railroad Experts

      William Wilson, Professor, North Dakota State University

      Carl Martland, Professor (Retired), Massachusetts Institute of Technology

      Randy Resor, Office of the Secretary, U.S. Department of Transportation

Government Agencies

      Energy Information Administration

      Federal Railroad Administration

      Surface Transportation Board

Trade Associations

      Edison Electric Institute

      National Grain and Feed Association

      Forest Products Association of Canada

      American Forest & Paper Association

      National Rural Electric Cooperative Association

      American Public Power Association

      Renewable Fuels Association

Rail Shippers

      Confidential interviews of fifteen coal utilities

      Confidential interviews of four lumber and forest products shippers

Railroads

      Norfolk Southern




Exhibit B. Activities Visited or Contacted
                                             15


     CSX Transportation

     Burlington Northern Santa Fe

     Union Pacific




Exhibit B. Activities Visited or Contacted
                                                                  16




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name        	                          Title

Betty Krier 	                          Supervisory Economist/ Program
                                       Director

Keith Klindworth 	                     Economist

Sandra Menjivar 	                      Analyst

Susan Neill 	                          Writer/Editor




Exhibit C. Major Contributors to This Report
    Figure 1: Share of Shipments by
Contract, Fiscal Years 2004 through 2008
                     Coal Shipments
             Year                     Share (%)
             2004                        77
             2005                        79
             2006                        77
             2007                        77
             2008                        75
                    Wheat Shipments
             Year                   Share (%)
             2004                      30
             2005                      27
             2006                      27
             2007                      22
             2008                      21
                    Lumber Shipments
             Year                   Share (%)
             2004                      74
             2005                      72
             2006                      68
             2007                      67
             2008                      65
                    Ethanol Shipments
             Year                   Share (%)
             2004                      83
             2005                      78
             2006                      49
             2007                      48
             2008                      47
Source: STB Data
 Figure 2: Average Train
 Speed - BNSF, January
 2003 through December
           2009
    Date                    MPH
  Jan 2003                  26.34
  May 2003                  25.16
  Sept 2003                 24.75
  Jan 2004                  24.44
  May 2004                  22.48
  Sept 2004                 22.90
  Jan 2005                  23.43
  May 2005                  24.03
  Sept 2005                 22.98
  Jan 2006                  23.53
  May 2006                  22.50
  Sept 2006                 23.40
  Jan 2007                  23.18
  May 2007                  23.30
  Sept 2007                 23.15
  Jan 2008                  24.38
  May 2008                  23.84
  Sept 2008                 24.05
  Jan 2009                  26.04
  May 2009                  27.30
  Sept 2009                 27.40
Source: Association of American Railroads
(AAR) data compiled by STB
    Figure 3: Average
  Terminal Dwell - BNSF,
  January 2003 through
     December 2009
     Date                   Hours
   Jan 2003                 28.78
   May 2003                 28.60
   Sept 2003                29.33
   Jan 2004                 28.76
   May 2004                 31.75
   Sept 2004                29.60
   Jan 2005                 25.25
   May 2005                 24.03
   Sept 2005                22.98
   Jan 2006                 23.53
   May 2006                 22.50
   Sept 2006                23.40
   Jan 2007                 23.18
   May 2007                 23.30
   Sept 2007                23.15
   Jan 2008                 24.53
   May 2008                 24.68
   Sept 2008                23.15
   Jan 2009                 25.30
   May 2009                 22.30
   Sept 2009                23.05
Source: AAR data compiled by STB
 Figure 4: Revenue Ton
Miles - Class I Railroads,
 January 2000 through
    December 2009

 Quarter            Ton Miles
Q1 2000            364,063,621,000
Q3 2000            376,029,673,000
Q1 2001            370,383,313,000
Q3 2001            367,728,975,000
Q1 2002            364,915,982,000
Q3 2002            371,861,694,000
Q1 2003            368,389,879,000
Q3 2003            387,603,472,000
Q1 2004            395,609,191,000
Q3 2004            417,287,746,000
Q1 2005            416,723,258,000
Q3 2005            420,956,404,000
Q1 2006            429,821,938,000
Q3 2006            443,578,785,000
Q1 2007            421,798,001,000
Q3 2007            444,282,069,000
Q1 2008            442,522,998,000
Q3 2008            450,620,164,000
Q1 2009            378,299,141,000
Q3 2009            387,472,518,000
Source: AAR Data
